CASE No.

In The Supreme Court of the United States

POPPI METAXAS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Second Circuit
PETITION FOR WRIT OF CERTIORARI
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

I.

QUESTIONS PRESENTED

1.
Whether the petitioner was denied effective
assistance of counsel with respect to the plea
process by counsel’s failure to discuss with and
inform the petitioner of possible defenses to
petitioner’s charges? If counsel had done so, there
was a “reasonable probability” the petitioner
would have insisted on going to trial instead of
pleading guilty.
2.
Did the district court and court of appeals
fail to comply with the applicable standard when
denying the petitioner a certificate of appealability
(“COA”).

i

II. TABLE OF
CONTENTS

I. QUESTIONS PRESENTED ..................... I
II. TABLE OF CONTENTS ........................... I
III. TABLE OF AUTHORITIES ................. III
IV. PETITION FOR A WRIT OF
CERTIORARI ................................................ 1
V.

OPINIONS BELOW .............................. 1

VI. JURISDICTION .................................... 1
VII. CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ............................ 2
VIII. STATEMENT OF THE CASE .............. 4
IX. REASONS FOR GRANTING THE
PETITION...................................................... 9
A. PETITIONER IN ENTITLED TO
VACATUR OF HER PLEA AND SENTENCE
ON THE GROUND OF INEFFECTIVE
ASSISTANCE OF COUNSEL ...................... 9

ii
1. Ineffective Assistance Standard. ........ 10
2. Petitioner Received Ineffective
Assistance During the Plea Process. ........ 15
B. THE DISTRICT COURT AND COURT
OF APPEALS ERRED IN NOT GRANTING
COA .............................................................. 25
X.

CONCLUSION .................................... 26
INDEX OF APPENDICES

APPENDIX A - District Court’s Order &
Judgment Denying 28
U.S.C. § 2255 Relief
APPENDIX B - Second Circuit Order
Denying a Certificate of
Appealability

ii

iii
III. TABLE OF
AUTHORITIES
Cases
Boria v. Keane,
99 F.3d 492 (2d Cir. 1996) ..................... 11
Henry v. Poole,
409 F.3d 48 (2d Cir. 2005) ................. 9, 13
Hill v. Lockhart,
474 U.S. 52 (1985) ....................... 10, 11, 17
Keys v. United States,
545 F.3d 644 (8th Cir. 2008) .................. 20
Lafler v. Cooper,
132 S.Ct. 1376 (2012) ............................. 10
Lindstadt v. Keane,
239 F. 3d 191 (2d Cir. 2001) .................. 13
Lockhart v. Fretwell,
506 U.S. 364 (1993) ................................ 14
Miller-El v. Cockrell,
537 US 322 (2003) .................................. 25

iii

iv
Muniz v. United States,
360 F. Supp. 2d 574 (S.D.N.Y. 2005) ..... 16
Ouber v. Guarino,
293 F.3d 19 (1st Cir. 2002) .................... 14
Padilla v Kentucky,
559 U.S. 356 (2010) ........................... 11-12
Purdy v. United States,
208 F.3d 41 (2d Cir. 2000) ..................... 11
Riggs v. Fairman,
399 F 3d 1179 (9th Cir. 2005) ................ 13
Rosario v. Ercole,
601 F.3d 1 (2d Cir. 2010) .................... 9-10
Rosario v. Ercole,
617 F.3d 683 (2d Cir. 2010) ................... 10
Shaw v. United States,
137 S. Ct. 462 (2016) ......................... 15-16
Strickland v. Washington,
466 U.S. 668 (1984) .......................... 10, 13
United States v. Berryman,
322 Fed. Appx. 216 (3d Cir. 2009) ......... 14

iv

v
United States v. Bowie,
198 F.3d 905 (D.C. Cir. 1999) ................ 14
United States v. Calabrese,
660 Fed. Appx. 97 (2d Cir. 2016) ........... 15
United States v. Rodriguez,
140 F.3d 163 (2d Cir. 1998) ................... 15
United States v. Vargas,
709 F. Supp. 2d 48 (D.D.C. 2010) .......... 14
Statutes
18 U.S.C. § 3553 ........................................... 8
28 U.S.C. § 1254 ........................................... 1
28 U.S.C. § 1254 .1 ....................................... 1
28 U.S.C. § 2253 ........................................... 3
28 U.S.C. § 2255 .................................. vi, 1, 2
Other
U.S. Const. Amend. VI ................................. 2

v

1
IV. PETITION FOR A WRIT OF CERTIORARI
Poppi Metaxas respectfully petitions for a
writ of certiorari to review the e Second Circuit
Court of Appeals judgment denying a Certificate of
Appealability (“COA”).
V.

OPINIONS BELOW

The district court’s denial of Petitioner’s §
2255 Motion and the Second Circuit’s decision
denying a Certificate of Appealability are included
in the Appendix.
VI. JURISDICTION
The order of the court of appeals denying
Petitioner a COA was entered September 17, 2020.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).1
____________________________________
1

Petitioner’s term of supervised release
expired prior to the filing of this petition for writ
of certiorari. Although this Court has jurisdiction
under 28 U.S.C. § 1254(1), these 28 U.S.C. § 2255
proceedings now appear to be moot because
Petitioner is no longer “in custody” for § 2255
purposes. Because Petitioner is not able to
complete the appeals process tied to her § 2255
motion, a motion requesting this Court dismiss the
petition for writ of certiorari as moot, along with

2
instructions for the lower courts to do so as well
will be submitted.
VII. CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. Amend. VI
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein the
crime shall have been committed, which district
shall have been previously ascertained by law, and
to be informed of the nature and cause of the
accusation; to be confronted with the witnesses
against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
28 U.S.C. § 2255(a)
(a) A prisoner in custody under sentence of a
court established by Act of Congress claiming
the right to be released upon the ground that
the sentence was imposed in violation of the
Constitution or laws of the United States, or
that the court was without jurisdiction to
impose such sentence, or that the sentence
was in excess of the maximum authorized by
law, or is otherwise subject to collateral
attack, may move the court which imposed the
sentence to vacate, set aside or correct the
sentence.

3
28 U.S.C. § 2253(c)
(c)
(1) Unless a circuit justice or judge issues
a certificate of appealability, an appeal may
not be taken to the court of appeals from—
(A) the final order in a habeas corpus
proceeding in which the detention complained
of arises out of process issued by a State court;
or
(B) the final order in a proceeding under
section 2255.
(2) A certificate of appealability may issue
under paragraph (1) only if the applicant has
made a substantial showing of the denial of a
constitutional right.
(3) The certificate of appealability under
paragraph (1) shall indicate which specific
issue or issues satisfy the showing required by
paragraph (2).

4
VIII. STATEMENT OF THE CASE
Petitioner Poppi Metaxas is the former
president of Gateway Bank (“Gateway”), a
minority-owned thrift institution with its
headquarters in Oakland, California. Gateway’s
primary business involved “warehouse lending,”
i.e., providing financing to retail mortgage lenders.
The Indictment in this case arose from
Gateway’s difficulties following the economic
downturn of 2008. In the wake of the Great
Recession, the Office of Thrift Supervision (“OTS”)
became concerned about the volume of nonperforming loans and real estate owned assets,
which it described as “toxic assets,” on Gateway’s
books. As a result of meetings with OTS, Gateway
began looking for buyers of its non-performing
assets.
During February and March 2009, a series of
transactions, dubbed the “round trip” in the
Indictment against Metaxas, took place with
respect to the non-performing assets. Specifically,
Gateway made a $3.64 million loan to Ideal
Mortgage Bankers, Ltd. (“Ideal”), which was then
Gateway’s largest warehouse lending client. Ideal,
in turn, lent the $3.64 million to three other
corporations owned by the associates of its chief
strategist Michael Ashley (“the Purchasers”) via
promissory notes providing 6 percent interest over
a five-year term. The Purchasers then entered into
an agreement with Gateway to purchase the

5
assets. This money formed the bulk of the
Purchasers’ $3 million down payment to Gateway,
which represented 25 percent of the $15.3 million
purchase price. Six bulk sales transactions
followed which effectuated the sale of the assets.
As carefully documented in a recent report by
banking expert Joseph Anastasi in connection with
related civil litigation, Gateway’s agreement with
the Purchasers was carefully structured to avoid
any possibility of loss to Gateway. In particular,
Gateway did not transfer title to the assets at the
time of closing, resulting in the Purchasers “not
bear[ing] the risks or rewards associated with
actually owning these assets.”(Statement of
Gateway CFO Tim Green). “In summary, after
entering into the Troubled Asset Sale, Gateway
Bank continued to service the [assets] and . . . [pay]
the costs of servicing these assets.” (Green, supra).
The non-transfer of title appears to have been by
mutual
agreement
with
the
Purchasers
themselves refusing to take title as well as
Gateway declining to transfer it. (CFO Tim Green
Statement id.).
In addition to the down payment, the
Purchasers made approximately $468,752 in
payments to Gateway before defaulting. Ideal, too,
defaulted on its loan to Gateway due to a series of
events in late 2009 and early 2010 in which it was
sued with respect to abusive lending practices (in
which Ms. Metaxas was not alleged to be involved)
and ultimately ceased operations and lost its

6
license. The total amount paid by Ideal on the loan
was $164,543, and Gateway was able to collect
further assets totaling $1,809.970 via seizure of
funds in various Ideal accounts.
However, because Gateway Bank never
actually transferred title to the assets that were
ostensibly “sold,” there was nothing Gateway had
to do to regain title after the default. Gateway was
instead able to resell all the assets as if the sale to
the Purchasers had never happened, and to keep
the payments previously made by the Purchasers
and Ideal as well as the full proceeds of the new
sales. This resulted in Gateway receiving a total of
$6,586,649 in ultimate proceeds with respect to
the assets at issue.
Mr. Anastasi noted that, at the time of the
agreement with the Purchasers, Gateway had
received an offer from Waterfall Asset
Management, LLC (“Waterfall”) to purchase the
troubled assets for $5 million, which represented
the assets’ market value at the time. Consequently,
the proceeds ultimately realized by Gateway were
more than $2.0 million greater than if it had never
made the sale to the Purchasers and had accepted
the Waterfall offer instead. Had the sale to the
Purchasers never taken place, Gateway would
have continued to attempt to liquidate these assets
in the same manner that it actually did, resulting
in no loss from the ultimate disposition of the
assets in arm’s-length transactions with third
parties.

7
On March 31, 2014 some five years after the
asset sale — the Government lodged a three-count
Indictment against petitioner (Doc. 1) charging
conspiracy to commit bank fraud, bank fraud, and
perjury. It was not alleged in the Indictment that
the “round trip” transaction was facially illegal.
Instead, the Government alleged that Ms.
Metaxas defrauded her own board by not
disclosing to them that the transaction was a
“round trip” and that the loan to Ideal was related
to the funds used by the Purchasers to make the
$3.85 million down payment. Notably, in a recent
deposition taken during related civil litigation, the
then-board chairman, Laurence Wang, testified
that he did not have the opinion that Ms. Metaxas
misled the board regarding the true nature of the
transactions.
The perjury charge related to testimony
given by Ms. Metaxas to the OTS on or about
October 21, 2009, in which she stated that “one of
the things that we did not do is verify source of
down-payment [sic].”
Ms. Metaxas retained Cooley, LLP (“Cooley”),
which had represented her in connection with the
OTS investigation, to represent her on the instant
charges. A total of seven (7) attorneys from
Cooley’s San Francisco offices were involved in the
case, with the lead counsel being Laura Grossfield
Birger, Esq., of the New York office.

8
On April 30, 2015, Ms. Metaxas entered into
a plea agreement with the Government. . Under
the agreement, petitioner agreed to plead guilty to
Count One of the Indictment charging conspiracy
to commit bank fraud. The parties stipulated to a
Sentencing Guideline loss calculation of
$1,840,000, but petitioner “reserve[d] the right to
argue for a downward departure under the
Guidelines or lesser sentence pursuant to 18
U.S.C. § 3553 based on the claim that the loss
amount substantially overstates the seriousness of
the offense.”
The agreement contained a waiver of the
right to appeal and/or collaterally attack the
conviction and sentence, but it further provided
that “[nlothing in the foregoing waiver . . . shall
preclude the defendant from raising a claim of
ineffective assistance of counsel in an appropriate
forum.” On the same date, petitioner entered a
plea of guilty before this Court.
Subsequently, counsel did file a sentencing
memorandum (Doc. 59) which, inter alia, argued
persuasively that Gateway had sustained no loss
from the troubled asset sale. On December 2, 2015,
the district court imposed a below-Guideline
sentence of 18 months’ imprisonment followed by
three years of supervised release.
On May 16, 2016, judgment was entered
against Ms. Metaxas (Doc. 81). No notice of appeal
was filed from the judgment; accordingly,

9
Petitioner’s conviction became final 14 days later
on May 30, 2016.
IX. REASONS
PETITION
A.

FOR

GRANTING

THE

PETITIONER
IN
ENTITLED
TO
VACATUR OF HER PLEA AND
SENTENCE ON THE GROUND OF
INEFFECTIVE
ASSISTANCE
OF
COUNSEL

Petitioner submits that she did not enter a
knowing, voluntary and intelligent plea in this
case because she was misadvised by her attorneys,
and that had she been properly advised, she would
have declined to plead guilty and would have
contested her guilt at trial. It is acknowledged that
counsel and the other attorneys who worked on the
case performed admirably in many aspects,
especially with respect to sentencing. But it is well
settled that counsel’s creditable performance in
certain areas does not excuse its errors in others,
and that even a single error that rises to the
requisite level of prejudice results in ineffective
assistance even if counsel’s representation was
“competent in all other respects.” Henry v. Poole,
409 F.3d 48, 61 (2d Cir. 2005); see also Rosario v.
Ercole, 601 F.3d 1, 18, 126 (2d Cir. 2010)
(“look[ing] past a prejudicial error as long as
counsel conducted himself in a way that bespoke
of general competency throughout the trial . . .
would produce an absurd result inconsistent with

10
. . . the mandates of Strickland ”); Rosario v.
Ercole, 617 F.3d 683, 685, 687-88 (2d Cir. 2010).
Here, as set forth below, Ms. Metaxas’
counsel did err in failing to inform her that, under
Second Circuit law at the time of her plea and
sentencing, she had a complete defense to bank
fraud, and in failing to develop exculpatory
evidence and/or inform her accurately about the
strength of the evidence they had developed as well
as the strengths and weaknesses of the
Government’s case.
1.

Ineffective Assistance Standard.

It is beyond doubt that the Sixth Amendment
entitles criminal defendants the right to effective
assistance of counsel at all critical stages of the
proceedings. See Strickland v. Washington, 466
U.S. 668, 686 (1984). Under Strickland and its
progeny, a defendant who claims that he or she
was denied the effective assistance of counsel must
show two things: (1) counsel performed deficiently
and (2) prejudice flowing from the deficient
performance.
The critical stages at which effective
assistance is constitutionally mandated include
the plea process. See Hill v. Lockhart, 474 U.S. 52,
56-59 (1985); see also Lafler v. Cooper, 132 S.Ct.
1376, 1384 (2012) (“During plea negotiations
defendants are 'entitled to the effective assistance
of competent counsel”). “Where, as here, a

11
defendant is represented by counsel during the
plea process and enters his plea upon the advice of
counsel, the voluntariness of the plea depends on
whether counsel’s advice was within the range of
competence demanded of attorneys in criminal
cases.” Hill, 474 U.S. at 56.
The accepted professional standards for
defense counsel during the pre-plea stage the
‘range of competence” referred to in Hill — requires
that "[a]s part of [his or her] advice, counsel must
communicate to the defendant the terms of the
plea offer, and should usually inform the
defendant of the strengths and weaknesses of the
case against him, as well as the alternative
sentences to which he will most likely be exposed."
Purdy v. United States, 208 F.3d 41, 45 (2d Cir.
2000). It is counsel’s duty to make “an independent
examination of the facts, circumstances, pleadings
and laws involved and then ... offer his informed
opinion as to what plea should be entered." Boria
v. Keane, 99 F.3d 492, 497 (2d Cir. 1996). In
addition, counsel should inform the defendant of
possible defenses that can be invoked against the
charges in the indictment. See Hill, 474 U.S. at 5960.
Notably, Strickland and its progeny have
indicated that the ABA Criminal Justice
Standards for the Defense Function are relevant
to whether an attorney’s conduct falls within
acceptable professional norms. See, e.g., Padilla v
Kentucky, 559 U.S. 356, 367 (2010) (discussing

12
ABA standards in connection with effective
assistance during plea process for non- citizen
defendants).
These standards provide, inter alia:
Defense counsel should ensure that the client
understands any proposed disposition agreement,
including its direct and possible collateral
consequences.
Defense counsel should not recommend to a
defendant acceptance of’ a disposition without
appropriate investigation. Before accepting or
advising a disposition, defense counsel should
request that the prosecution disclose any
information that tends to negate guilt, mitigates
the offense or is likely to reduce punishment.
Defense counsel may make a recommendation to
the client regarding disposition proposals, but
should not unduly pressure the client to make any
particular decision. See Defense Function
Standard 4-6.2(c)-(e) (emphasis added).
Further,
defense counsel should consider the individual
circumstances of the case and of the client, and
should not recommend to a client acceptance of a
disposition offer unless and until appropriate
investigation and study of the matter has been
completed. Such study should include discussion

13
with the client and an analysis of relevant law, the
prosecution’s evidence, and potential dispositions
and relevant collateral consequences.
Standard 4-6.1(b).
The second prong of Strickland, prejudice, is
satisfied where there is a “reasonable probability”
that “counsel’s errors . . . ‘undermine[d] the
confidence in the outcome”’ of the proceeding.
Lindstadt v. Keane, 239 F. 3d 191, 204 (2d Cir.
2001), quoting Strickland, 466 U.S at 694. In the
plea context, this means that the "defendant must
show the outcome of the plea process would have
been different with competent advice." Lafler, 132
S.Ct at 1354.
However, to satisfy the prejudice standard, a
defendant need not show that counsel’s deficient
conduct more likely than not altered the outcome
in the case. Henry v. Poole. 409 F. 3d 48, 63 (2d Cir.
2005) (quoting Strickland, 466 U.S. at 693
(emphasis added). Moreover, “[the result of a
proceeding can be rendered unreliable, and hence
the proceeding itself unfair, even if the errors of
counsel cannot be shown by a preponderance of the
evidence to have determined the outcome.”' ld. at
64 (quoting Strickland 466 U.S. at 694 (emphasis
added).
Notably, a reasonable probability is “a fairly
low threshold.” Riggs v. Fairman, 399 F 3d 1179
(9th Cir. 2005). In particular, the reasonable
probability standard does not require that

14
prejudice be demonstrated by a preponderance of
the evidence. Kyles v. Whitley, 514 U.S. 419, 434
(1995). Courts have accordingly held that a
reasonable probability may be less than fifty
percent.” Ouber v. Guarino, 293 F.3d 19, 26 (1st
Cir. 2002); United States v. Bowie, 198 F.3d 905,
908-09 (D.C. Cir. 1999) (same); United States v.
Vargas, 709 F. Supp. 2d 48, 50 (D.D.C. 2010)
(same); United States v. Nelson, 921 F. Supp. 105,
120 (E.D.N.Y. 1996) (finding that 33 percent
chance amounted to a reasonable probability).
Indeed, it has been held that a reasonable
probability exists whenever the chances of a
different outcome are “better than negligible,”
United States ex. rel. Hampton v. Leibach, 347
F.3d 219, 246 (7th Cir. 2003), or put another way,
if they are “more than mere speculation.” United
States v. Berryman, 322 Fed. Appx. 216, 222 (3d
Cir. 2009).
Thus, a defendant need not show that she
certainly would have gone to trial and/or been
acquitted had her counsel not erred, but only
that her counsel’s performance undermines
confidence in the outcome when considered as part
of the entire case. Moreover, the prejudice prong of
Strickland, as opposed to the deficientrepresentation prong, may be adjudicated with the
benefit of hindsight. Lockhart v. Fretwell, 506 U.S.
364, 372 (1993).

15
2.

Petitioner
Received
Ineffective
Assistance During the Plea Process.

Under the above standard, petitioner
submits that her plea was the result of ineffective
assistance by Cooley in several respects. The
foremost of these is that Cooley did not inform her
that, under Second Circuit law at the time, she had
a complete defense to the bank fraud charge
because the ostensible round trip” transaction was
carefully structured to prevent not only loss to
Gateway but even the potential for loss.
At the time of the plea — and at the time that
any trial would have been held— the elements of
bank fraud in the Second Circuit were as defined
in United States v. Rodriguez, 140 F.3d 163 (2d Cir.
1998). In Rodriguez, the Second Circuit held that
no proof of actual loss was required to sustain a
bank fraud conviction, but that nevertheless, more
than deception alone was necessary; instead, there
must be “intent to victimize the institution by
exposing it to actual or potential loss.” Id. at 167
(emphasis added). Where “there was no evidence
presented at trial that Rodriguez intended to
victimize Chemical Bank by exposing it to an
actual or potential loss,” reversal was required.
United States v. Calabrese, 660 Fed. Appx. 97, 102
(2d Cir. 2016) (describing elements of bank fraud
as stated in Rodriguez).
Concededly, on December 12, 2016, this
Court held in Shaw v. United States, 137 S. Ct.

16
462, 464 (2016), that the bank fraud statute
“demands neither a showing that the bank
suffered ultimate financial loss nor a showing that
the defendant intended to cause such loss.” The
Shaw decision did not decide, however, whether an
intent to at least expose a bank to potential loss
was required, so it is debatable whether Shaw
actually overruled Rodriguez and its progeny. But
even if Shaw did overrule Rodriguez, the fact
remains that under well-settled precedent,
ineffective assistance is evaluated based on the
law as it existed at the time of the representation
rather than any changes to the law that might
occur at a later date. See, e.g., Duarte v. United
States, 137 Fed. Appx. 423 (2005) (evaluating
ineffective assistance “[g]iven the state of the law
at the time” of counsel’s alleged deficiency”);
Muniz v. United States, 360 F. Supp. 2d 574, 580
(S.D.N.Y. 2005) (weighing claim of ineffective
assistance at sentencing “[u]nder the governing
law at the time”).
At the time of Ms. Metaxas’ guilty plea trial
was soon to begin, with a pretrial conference set
for May 12, 2015 (see Doc. 42). The trial would
have been held under Rodriguez and the jurors
would have been instructed under Rodriguez, and
thus, the jury would perforce have had to acquit
Ms. Metaxas if it determined that she did not
intend to expose the bank to potential loss. Indeed,
it is likely that even an appeal, in the event that
Ms. Metaxas were convicted, would have been
litigated and decided under Rodriguez.

17
To be sure, under Hill an attorney’s failure
to advise a defendant concerning a complete
defense prior to a guilty plea constitutes
ineffective assistance only if such defense would
have had a reasonable probability of succeeding at
trial. See Hill, 474 U.S. at 59-60. All this means,
however, is that there is a reasonable probability
that a jury would have found reasonable doubt,
and such a probability — and indeed far more —
plainly exists here. As noted above, the “sale” of
the troubled assets was highly unusual in that
Gateway did not transfer title at the time of
closing, and indeed kept title throughout the
period between the closing and the Purchasers’
default. This unusual condition of sale could have
been proposed and implemented for only one
reason: to protect Gateway from even the potential
of loss by allowing it. In the event of default, to resell the assets as if the sale to the Purchasers had
never occurred. Indeed, Gateway was doubly
protected because, in the event of default, it could
not only re-sell the assets but keep the payments
that had been made by the Purchasers and Ideal
prior to defaulting.
In fact, that is precisely what happened.
When the Purchasers and Ideal defaulted,
Gateway did not have to take any steps to regain
title to the assets, because it had never transferred
title in the first place and thus still owned them. It
was able to put the assets on the market as if the
prior sale had never happened, and between the
proceeds of the re-sale and the proceeds it retained

18
from the Purchasers’ pre-default payments,
Gateway in fact realized $2.0 million more than it
would have obtained in proceeds if it had accepted
the alternative offer from Waterfall. In other
words, the retention of title worked exactly as it
was supposed to, and shielded Gateway from even
the potential that it might have lost money on the
sale.
Had a jury been presented with the facts and
circumstances of the sale, there is far more than a
reasonable probability that it would have found,
as required under Rodriquez, that Ms. Metaxas
did not intend to expose Gateway to either actual
or potential loss. Such a finding would be even
more likely given that, as the president of
Gateway, Ms. Metaxas had no motive to defraud
her own bank. This is not a case where a bank
president diverted the bank’s funds to her personal
use; instead, it is undisputed that Ms. Metaxas
never sought or obtained a dime over and above
her own salary. Moreover, in addition to being the
president, Ms. Metaxas was also a significant
shareholder and, just 30 days prior to the alleged
fraud, she had borrowed $500,000 against her
house and made a capital contribution to Gateway
with the loan proceeds. What possible reason
would a bank president have to expose her own
bank, in which she was a shareholder, to financial
loss without any corresponding prospect of gain to
herself. A jury asked this question, and confronted
with the way the transaction was structured to
protect Gateway from even the possibility of loss,

19
could only answer it in one way, and accordingly, it
was ineffective assistance for Cooley not to advise
Ms. Metaxas of this complete defense prior to her
entering her plea.
Indeed, Petitioner submits that the
ineffective assistance in this regard was so
egregious that it requires dismissal of the bank
fraud and bank-fraud conspiracy charges rather
than merely a new trial. A remedy for ineffective
assistance should restore the movant to the
position she would have been in had the ineffective
assistance never occurred.
To be sure, Rodriguez would have provided
a defense only to Counts One and Two of the
indictment and not to Count Three charging
perjury. However, it was already known that she
had a good defense to that charge, for the reasons
stated in her motion to dismiss (Doc. 36). Her
statement that Gateway didn’t verify the source
of the Purchasers’ funding is not tantamount to
a denial of knowledge concerning that source,
and was indeed literally truthful given that
Gateway did not conduct a verification process
concerning the source of funding. Thus, there is
a reasonable probability that Ms. Metaxas would
have secured an acquittal had she gone to trial
on the perjury charge. Had she known that she
had a complete defense to the bank fraud
charges as well, she would have gone to trial
and defended herself against the entirety of the
indictment. See, Keys v. United States, 545 F.3d

20
644, 648 (8th Cir. 2008) (remedy should “restore[]
the defendant to the position he would havoc
occupied had he been competently counseled”); see
generally Lafler, 566 U.S. at 170-74 (discussing
remedies for ineffective assistance in the plea
process and observing that the remedy should
“neutralize the taint of the constitutional
violation”).
Now because of Shaw Ms. Metaxas can never
be put in the position she was in had she not
received ineffective assistance from Cooley. Even
if her plea is vacated at this time, she will not be
able to assert a trial defense under Rodriquez as
she would have been able to do in 2015. Given the
overwhelming likelihood that such a defense
would have succeeded, her loss of the defense due
to a subsequent change in decisional law is
irreparable. This Court should accordingly find,
not only that Ms. Metaxas’ plea should be vacated,
but that Counts One and Two of the indictment
should be dismissed and a trial scheduled on
Count Three only.
Additionally, as a separate and independent
ground of ineffective assistance of counsel, Ms.
Metaxas contends that Cooley failed to properly
inform her of the strengths and weaknesses of the
Government’s case as well as the strengths and
weaknesses of her own case. In particular, counsel
overstated the strength of the Government’s proof,
failed to discover certain exculpatory evidence that
could have supported Ms. Metaxas’ defense, and

21
underestimated the strength of the exculpatory
evidence that it did develop.
At the outset of the case, the Government’s
claim that petitioner intended to defraud her own
bank relied strongly on two sets of documents.
First, it claimed that Ms. Metaxas entered into an
alleged
“confidential
understanding”
with
cooperating witness Ashley (the principal of Ideal)
promising favorable treatment to Ideal in exchange
for services rendered in regard to the nonperforming assets. Between the original draft of
the March 26, 2009 Gateway board meeting at
which the asset sale and the Ideal loan were
approved and a subsequent final draft, claiming
that these differences were proof that Ms. Metaxas
had a guilty conscience and was attempting to
cover her tracks.
However, the IRS conducted a forensic
analysis of the “confidential understanding” which
proved that it was a forgery. In particular, Ms.
Metaxas’ fingerprints appeared nowhere on the
document while the fingerprints of Robert
Savitsky, Esq., an attorney for Ashley who
subsequently pled guilty before Judge Feuerstein
to inter alia forging signatures, were all over it.
Moreover, the IRS forensic examiner could not
conclude that Ms. Metaxas’ purported signature
was in fact written by her, and concluded instead
that it was likely the product of Mr. Savitsky
attempting to imitate her writing style. And, just
as notably, despite threats of litigation between

22
Ideal and Gateway during September 2009, at no
time did Ideal’s attorneys ever allege a breach of
this “understanding” which they would have done
had it in fact existed.
Likewise, the original draft of the March 26,
2009 board meeting was prepared by an
inexperienced individual and contained errors.
The corrected draft was circulated to the Board for
approval in early April 2009 and was at the April
board meeting. While the Government still
contended, as late as the time of sentencing, that
Ms. Metaxas had doctored the March 26 minutes
to cover her tracks, what are the odds that the
entire board, many of whom were attorneys, CPAs
or both, and at least one of whom was an
experienced auditor, would have approved the
revisions so soon after the meeting and without a
single murmur if this were so? Any jury would
understand that, if the final draft of the minutes
had in fact been doctored and if the Board had in
fact been deceived about the relationship between
the Ideal loan and the troubled-asset purchase
money (which, though not explicitly stated in the
final draft, is strongly suggested), then at least one
of the directors would have made a fuss.
The existence of this exculpatory evidence
was known to counsel, but nevertheless, counsel
continued to minimize its significance and
characterize
the
Government’s
case
as
overwhelming. In fact, it was anything but.
Without the documents in question, the

23
Government’s case against Ms. Metaxas would
have consisted primarily of the testimony of
Ashley, who was the only one who could testify to
her alleged knowledge of the 'round trip” (the
Board members might have testified that they
were not informed of the round trip but not that
Ms. Metaxas knew of it and/or had helped set it
up), and Mr. Ashley was a very unreliable witness.
His unreliability stemmed not merely from the fact
that he was a cooperator, but from (a) the fact that
he had initially told the Government that Ms.
Metaxas was not aware of the round trip, and (b)
the fact that his associate, Robert Savitsky, had
probably created a document that falsely
implicated Ms. Metaxas. A jury would certainly
have understood that Mr. Savitsky would not have
created such a document on behalf of Ideal without
checking with Mr. Ashley. and therefore, would
have understood that Mr. Ashley’s testimony was
part and parcel of a scheme to gain favorable
treatment by blaming Ms. Metaxas for his own
crimes.
Furthermore, there is additional exculpatory
evidence that Cooley could have developed,
including evidence that the Gateway Board was
strongly pushing for both the Ideal loan and asset
sale to be closed and the fact that the Executive
Loan Committee of the Board had “extensive
discussions” regarding both. A board consisting of
CPAs, attorneys and auditors could hardly have
failed to grasp the significance of a loan being
granted in tandem with a sale that called for a

24
down payment of a similar amount which
included, among the Purchasers, entities owned
by an individual whose been developed through
CFO Tim Green and directors Jessica Wang, and
James E. Baxter II, as well as through former
Gateway employee Eileen Doherty who could have
provided evidence concerning the approval of the
revised set of minutes and the Board’s knowledge
of the relationship between the Ideal loan and the
asset sale. Moreover, former Board Chair
Laurence Wong testified that he did not believe
Ms. Metaxas misled the Board, and there is no
reason to believe that he would have stated
differently had Cooley held discussions with him
before the plea.
Accordingly, this Court should find that,
however commendable Cooley’s representation
was in other respects, it failed in its duty to
discover and develop exculpatory evidence and to
accurately inform Ms. Metaxas of the strengths
and weaknesses of both the Government’s case
and her own. Simply put, Cooley treated this case
from its inception as one that was likely to result
in a guilty plea and advised petitioner accordingly.
Had petitioner been properly advised, she would
not have pled guilty. Hence, this Court should find
that she received ineffective assistance and that
her plea must be vacated.
Here, petitioner’s allegations are of precisely
the kind referenced in Pham, Chang and Armienti,
i.e., facially valid claims that hinge on off-the-

25
record interactions with trial counsel. The case
docket does not permit the Court to determine,
much less “conclusively” determine, that
petitioner is not entitled to relief.
B.

THE DISTRICT COURT AND COURT
OF APPEALS
ERRED
IN
NOT
GRANTING COA

This claim is easily resolved. As this Court
has opined:
Under the controlling standard, a petitioner must
sho[w] that reasonable jurists could debate
whether (or, for that matter, agree that) the
petition should have been resolved in a different
manner or that the issues presented were
adequate to deserve encouragement to proceed
further. Miller-El v. Cockrell, 537 US 322, 336
(2003) (citations omitted, internal quotations
omitted).
“Reasonable jurist” could have resolved this
matter in a different matter, for example, by
applying Rodriguez differently. In addition,
considering the tension that seemingly exists
between Rodriguez and this Court’s opinion in
Shaw, “the issues presented were adequate to
deserve encouragement to proceed further.” Id.

26
X.

CONCLUSION

WHEREFORE, Poppi Metaxas respectfully
asks this Court to grant this Petition for Writ of
Certiorari, vacate the denial of a COA by the court
of appeals and district court and remand this case
to the Second Circuit for further proceedings.
Respectfully submitted,
/s/Brandon Sample
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

